                                       NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                          OFFICE OF INVESTIGATIONS


                              CLOSEOUT MEMORANDUM

Case Number: A07060034
                                                                    11        Page 1 of 1



    As p a r t of a proactive review of proposals to identify possible plagiarism, we
    identified text i n a proposal1 submitted to NSF t h a t was copied from a document
    produced by a state agency (SA).2
    The PI3 told us the SA had sent out a request for proposals, a n d he responded to it.
    He said the SA employee simply incorporated all the proposals into her document,
    but did not include t h e individual PIS' names. He said everything we identified a s
    copied was from the proposal he submitted to SA. The P I sent a n email with a n
    attached copy of the 2-page proposal he submitted to SA.
    We checked the properties of the attached document, and they show it was created
    a n d emailed to SA in 2005. The text i n t h e pre-proposal is exactly what appears in
    t h e SA document, portions of which t h e P I reused in his NSF proposal.
    Since the text identified a s copied in t h e N S F proposal from t h e SA document
    actually comes from the PI'S previous SA proposal, there is no substance to support
    a n allegation of plagiarism. Accordingly, this case is closed.




       1 (footnoteredacted)
        (footnote redacted)
        (footnote redacted)
